Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 IMPROVEMENTS NEEDED TO
     ENSURE PROVIDER
ENUMERATION AND MEDICARE
  ENROLLMENT DATA ARE
 ACCURATE, COMPLETE, AND
       CONSISTENT




                    Daniel R. Levinson
                     Inspector General

                       May 2013
                     OEI-07-09-00440
EXECUTIVE SUMMARY: IMPROVEMENTS NEEDED TO ENSURE PROVIDER
ENUMERATION AND MEDICARE ENROLLMENT DATA ARE ACCURATE,
COMPLETE, AND CONSISTENT
OEI-07-09-00440

WHY WE DID THIS STUDY

Health care provider information, including providers’ unique National Provider Identifiers
(NPIs), is maintained in the National Plan and Provider Enumeration System (NPPES). To
enroll in Medicare, providers must supply their NPIs and other information to the Centers for
Medicare & Medicaid Services (CMS) to be entered into the Provider Enrollment, Chain and
Ownership System (PECOS). Accurate, complete, and consistent provider data in NPPES and
PECOS help to ensure the integrity of all health care programs. Previous Office of Inspector
General work has revealed ongoing problems with CMS’s oversight of provider data, sometimes
resulting in improper Medicare payments to fraudulently enrolled providers.

HOW WE DID THIS STUDY

We surveyed a random sample of individual Medicare providers to determine the accuracy of the
provider information stored in NPPES and PECOS. We reviewed individual provider data in
both NPPES and PECOS to determine whether these data were complete and consistent between
the two databases. Additionally, we interviewed CMS staff to gather information about
oversight of provider data in NPPES and PECOS.

WHAT WE FOUND

Medicare provider data in NPPES and PECOS were often inaccurate and occasionally
incomplete, and were generally inconsistent between the two databases. In NPPES, provider
data were inaccurate in 48 percent of records, and complete for nearly all required variables but
incomplete for conditionally required variables in 9 percent of records. In PECOS, provider data
were inaccurate in 58 percent of records and incomplete in almost 4 percent. Additionally,
provider data were inconsistent between NPPES and PECOS for 97 percent of records.
Addresses, which are essential for contacting providers and identifying trends in fraud, waste,
and abuse, were the source of most inaccuracies and inconsistencies. Finally, CMS did not
verify most provider information in NPPES or PECOS.

WHAT WE RECOMMEND

Inaccurate, incomplete, and inconsistent provider data coupled with insufficient oversight place
the integrity of the Medicare program at risk and present vulnerabilities in all health care
programs. CMS should require Medicare Administrative Contractors to implement program
integrity safeguards for Medicare provider enrollment as established in the Program Integrity
Manual. Additionally, CMS should require more verification of NPPES enumeration and
PECOS enrollment data. Finally, CMS should detect and correct inaccurate and incomplete
provider enumeration and enrollment data for new and established records. CMS concurred with
all three of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ..............................................................................................10 

Findings......................................................................................................17 

           In NPPES, 48 percent of records contained inaccurate data; 

           almost all required data were complete .........................................17 

           In PECOS, 58 percent of records contained inaccurate data 

           and almost 4 percent were incomplete ...........................................18 

           Provider data were inconsistent between NPPES and PECOS 

           for 97 percent of records ................................................................21 

           CMS did not verify most provider information in NPPES or 

           PECOS ...........................................................................................22 

Conclusion and Recommendations ............................................................28 

           Agency Comments and Office of Inspector General Response.....30 

Appendixes ................................................................................................31 

           A: Detailed Methodology .............................................................31 

           B: Point Estimates and Confidence Intervals Based on 

           Provider Survey .............................................................................33 

           C: Safeguards That Medicare Administrative Contractors 

           Report Using To Verify Provider Enrollment Data ........................35 

           D: Agency Comments ...................................................................37 

Acknowledgments......................................................................................41 

         OBJECTIVES
         To assess:
         1.	 provider enumeration data (i.e., from providers’ applications for
             National Provider Identifiers (NPIs)) and Medicare provider
             enrollment data maintained by the Centers for Medicare & Medicaid
             Services (CMS) for accuracy, completeness, and consistency; and
         2.	 CMS oversight processes for ensuring the accuracy, completeness, and
             consistency of provider enumeration data and Medicare provider
             enrollment data.

         BACKGROUND
         CMS has two databases with basic provider-related data—one from which
         providers obtain NPIs and one through which providers enroll in
         Medicare. Before enrolling in Medicare, a health care provider must
         apply through the National Plan and Provider Enumeration System
         (NPPES) to obtain an NPI.1 CMS assigns NPIs to providers via a process
         called enumeration, and these NPI assignments are maintained in the
         NPPES database. A health care provider wishing to establish and maintain
         Medicare billing privileges must enroll in Medicare and periodically
         reenroll with accurate and verifiable information via an approved CMS
         application process.2 Currently, Medicare provider enrollment
         applications are processed through the Provider Enrollment, Chain and
         Ownership System (PECOS). Providers are required to submit identifying
         information to each application system, such as individuals’ names, dates
         of birth (DOBs), State professional license numbers, and practice
         locations. CMS oversees both NPPES and PECOS and uses contractors to
         process and maintain provider data.
         As described in the Office of Inspector General’s (OIG) 2012
         Compendium of Unimplemented Recommendations, the Department of
         Health and Human Services (HHS) and OIG
                rely heavily on the availability and completeness of data to ensure
                that … departmental programs are operating as intended and help
                identify instances of fraud, waste, and abuse…. When these data are


         1
           42 CFR § 424.506(b); CMS, Medicare Program Integrity Manual (PIM) (Internet-only
         manual), Pub. No. 100-08, ch. 10, § 4.2.1, and ch. 15, § 15.3. (At the time of our review,
         information relating to provider enrollment was found in ch. 10 of the PIM; CMS has
         since moved some of this information to ch. 15.)
         2
             42 CFR §§ 424.505 and 424.515.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)       1
                 unavailable, are incomplete, or contain inaccuracies, program
                 oversight and monitoring activities are hindered.3
         OIG identifies the integrity and security of health information systems and
         data as a Top Management Challenge for HHS.4
         Provider Enumeration in NPPES
         The Health Insurance Portability and Accountability Act of 1996 (HIPAA)
         required the Secretary of HHS to (1) establish a standard unique health
         care system identifier for each provider and (2) specify the purposes for
         which the identifier may be used.5 The resulting identifier, the NPI, is
         intended for use by all individuals and entities that meet the definition of a
         health care provider and/or a health care organization under HIPAA.6
         On January 23, 2004, CMS promulgated a final rule in the Federal
         Register adopting the NPI as the standard unique health identifier for
         health care providers.7 Each health care provider satisfying HIPAA’s
         definition of covered entities8 was required to obtain and use an NPI for
         HIPAA transactions9 no later than May 23, 2007.10 Therefore, current
         health care providers must use NPIs to submit electronic bills to insurers
         for payment.
         The NPI replaced the legacy identification numbers (e.g., the Unique
         Physician Identification Number (UPIN) for Medicare) that health insurers
         used to identify their enrolled health care providers claiming
         reimbursement for services.11 Prior to the use of the NPI, a provider would
         have used multiple identification numbers to submit claims for

         3
          OIG, Compendium of Unimplemented Recommendations, December 2012 Edition,
         p. 131. Accessed at http://oig.hhs.gov on January 3, 2013.
         4
           OIG, 2012 Top Management & Performance Challenges, Management
         Issue 9: Availability and Quality of Data for Effective Program Oversight,
         November 9, 2012. Accessed at http://oig.hhs.gov on January 3, 2013.
         5
           HIPAA (P.L. 104-191), enacted on August 21, 1996. Title II, Subpart F, § 262(a) added
         a new pt. C to Title XI of the Social Security Act, “Administrative Simplification.”
         Currently, pt. C consists of §§ 1171 and 1180.
         6
             69 Fed. Reg. 3434, 3440 (Jan. 23, 2004).
         7
             Ibid. at 3434.
         8
          Ibid. at 3434. A covered entity means (1) a health plan, (2) a health care clearinghouse,
         or (3) a health care provider that transmits health information in electronic form in
         connection with a transaction covered by HIPAA.
         9
           The HIPAA transactions are claims and encounter information, payment and remittance
         advice, claims status, eligibility, enrollment and disenrollment, referrals and
         authorizations, and premium payment.
         10
            45 CFR § 162.404(b)(2). Small health plans were required to use the NPI in standard
         transactions no later than May 23, 2008.
         11
              CMS, NPI Fact Sheet. Accessed at http://www.cms.gov on May 12, 2009.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)       2
         reimbursement, with a different number for each participating health
         insurance plan. In contrast, the NPI is used by all health insurance plans,
         which enables the public and private sectors to consistently track providers
         nationwide.
         In the final rule establishing the NPI, CMS listed several examples of
         permissible uses of the NPI, including the following:
         	 The NPI may be used as a cross-reference in files on provider fraud
            and abuse and other program integrity files.
         	 The NPI may be used to identify providers for debt collection under
            the Debt Collection Improvement Act of 1996.
         	 Health plans may use the NPI in their internal files for providers to
            process transactions and in communications with providers.
         	 Health plans may communicate the NPI to other health plans for
            coordination of benefits.
         	 The NPI may be used to identify providers in patient medical records.12
         Providers may apply for an NPI using a Web-based or a paper
         application.13 The Web-based NPI application requires the following data
         for individuals: first and last names; Social Security number (SSN); DOB
         and place of birth; gender; mailing address; practice location address and
         telephone number; medical specialty (e.g., cardiology); State license
         information; and a contact person’s name, email address, and telephone
         number.14 Although the individual’s SSN and a contact person’s email
         address are required on Web-based applications, they are not required for
         paper applications.15 Providers must communicate any changes in required
         data elements to NPPES within 30 days of the change.16 As of June 30,
         2012, approximately 2.8 million health care providers (e.g., physicians)




         12
              69 Fed. Reg. 3434, 3449 (Jan. 23, 2004).
         13
           Providers may also apply online via Electronic File Interchange (EFI). EFI
         applications are submitted by CMS-approved organizations on behalf of health care
         providers.
         14
              CMS, NPPES Data Dictionary, ch. 19.1, pp. 1–3, 2010.
         15
           Ibid., p. 2. A provider must submit two proofs of identity if he or she does not furnish
         an SSN. CMS, National Provider Identifier (NPI) Application/Update Form
         CMS-10114, 2012. Acceptable forms of identification include a valid passport, birth
         certificate, photocopy of U.S. driver’s license, or State-issued identification.
         16
              45 CFR § 162.410(a)(4).


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)           3
         and 913,000 health care organizations (e.g., hospitals) had been assigned
         NPIs.17
         Provider Enrollment Data Maintained in PECOS
         Medicare Administrative Contractors (MACs) enroll providers in
         Medicare using PECOS. In 2002, CMS implemented PECOS as a
         national data repository for Medicare enrollment information about
         physicians, nonphysician practitioners, and provider and supplier
         organizations.18 It is intended to contribute to CMS’s information-based
         strategy on fraud and abuse.19
         The purpose of PECOS is to centralize Medicare provider enrollment.20
         PECOS is used to implement standard enrollment policies and procedures
         throughout the Medicare program.21 Each provider must obtain an NPI
         prior to applying for Medicare enrollment.22 Required provider data for
         initial enrollment in PECOS generally include an individual’s first and last
         names; NPI number; Tax Identification Number (TIN), which may be an
         SSN or Employer Identification Number (EIN); DOB; mailing address
         and practice location address(es); State license information and/or
         certification information (if applicable); provider type; medical specialty;
         medical or professional school/training institution and graduation year;
         adverse legal history; and payment information.23 The provider’s
         telephone number is recommended but not required for enrollment.24 After
         providers are enrolled, they must report any changes to their information
         within 90 calendar days of the changes.25
         Each MAC processes enrollment data for its jurisdiction through PECOS.
         Data extracts from PECOS are then used to populate the Multi-Carrier
         System, which MACs use to process and pay Medicare claims. Many



         17
           CMS, NPI Enumeration Statistics by State/Entity Type As of: 5/23/2005 through
         6/30/2012. Accessed at http://www.cms.gov on July 24, 2012.
         18
           66 Fed. Reg. 51961 (Oct. 11, 2001). Providers of durable medical equipment,
         prosthetics, orthotics, and supplies were not included in PECOS until 2010.
         19
              Ibid.
         20
              Ibid. at 51962. 

         21
              Ibid. 

         22
           42 CFR § 242.506(b); CMS, PIM, Pub. No. 100-08, ch. 15, § 15.3 (previously found in 

         ch. 10, § 4.21).
         23
           CGI Federal, PECOS 6.0.0 Required Fields, Doc ID: PECOS-6.0.0-REQ-67792-
         v0.10, April 2009. 

         24
              Ibid. 

         25
              42 CFR § 424.520(b). 



Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   4
         other CMS business functions rely on PECOS data. For example, PECOS
         may be used to:
         	 capture information from the Medicare enrollment forms and record
            the associations between the applicant and those that have an
            ownership or control interest in the entity;
         	 make informed enrollment decisions based on a provider’s history and
            any reported exclusions, sanctions, or felonious behavior at the
            provider’s locations or in multiple contractor jurisdictions;
               ensure that correct payments are being made under Medicare;
               assist other Federal or State agencies and their contractors;
               assist individual or organizational research, evaluation, or
                epidemiological projects;
               support litigation involving CMS; and
               combat fraud, waste, and abuse in certain health care programs.26
         As of December 2012, PECOS contained records for approximately
         1.2 million individual Medicare providers and 328,488 organizational
         Medicare providers.27 PECOS may not contain records for providers
         enrolled in Medicare prior to 2003 if no enrollment updates (e.g., changes
         of address) have been made. Information for these providers is maintained
         by individual MACs.
         Provider Identification Data Common to the NPPES and
         PECOS Databases
         Although no Federal mandate requires that information in NPPES and
         PECOS be consistent, the databases contain specific fields that collect the
         same information. Data fields that can be used to identify unique
         providers common to both databases include the following:
               first and last names, 

               NPI number, 

               SSN (conditionally required in NPPES28), 

               Gender (not required in PECOS29), 

               DOB,


         26
              71 Fed. Reg. 60536, 60539 (Oct. 13, 2006). 

         27
              OIG, analysis of PECOS data, 2013. 

         28
           SSN is conditionally required in NPPES. It must be included on Web-based

         applications, but not on paper applications.

         29
              The gender variable is optional rather than required in PECOS. 



Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   5
         	 mailing address and practice location address(es) and corresponding
            telephone numbers (telephone numbers are not required in PECOS),
         	 professional license number and issuing State (conditionally required
            in NPPES and PECOS30), and
         	 provider specialty.
         CMS Oversight of Provider Data
         In 2008, an OIG official testified to Congress that CMS could be more
         effective and efficient if it were to prevent the enrollment of unqualified
         and fraudulent providers rather than attempting to recover payments or
         redress fraud or abuse after it occurs.31 However, CMS has faced
         challenges in ensuring the integrity of Medicare provider enrollment.
         Many health care fraud schemes involving misuse of provider information
         have been “committed by criminals who masquerade as Medicare
         providers … who do not provide legitimate services or products.”32 Such
         criminals have used providers’ stolen identities to bill directly for services
         in the providers’ names or to authorize payment for beneficiary health care
         services.
         CMS Oversight of NPPES Enumeration Data. CMS uses two contractors
         to conduct provider enumeration.33 One contractor maintains NPPES and
         establishes electronic edits (i.e., internal system processes) to ensure that
         the NPI data conform to database requirements at the time a provider
         applies for an NPI. This contractor manages an Internet-based registry
         that makes NPPES data available to the public in accordance with the
         Freedom of Information Act.34 The other contractor enters data from paper
         applications into NPPES and operates a call center for providers who have
         questions or problems.
         CMS Oversight of PECOS Enrollment Data. CMS has developed
         safeguards for processing provider enrollments in PECOS to ensure that



         30
           License/certification information is conditionally required in NPPES and PECOS for
         specific types of providers, as applicable by the State in which they practice. For
         example, several States require dietitians to be licensed, others require certification, and a
         few do not require licensure or certification.
         31
           Medicare Payments for Claims with Identification Numbers of Dead Doctors,
         110th Cong. 12 (2008) (testimony of Robert A. Vito, Regional Inspector General for
         Evaluation and Inspections).
         32
           New Tools for Curbing Waste and Fraud in Medicare and Medicaid,
         112th Cong. 3 (2011) (testimony of Daniel R. Levinson, Inspector General).
         33
              See 45 CFR pt. 162.408, subpart D, detailing the provider enumeration process.
         34
              72 Fed. Reg. 30011, 30013 (May 30, 2007).


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)           6
         the applicants are eligible to participate in Medicare.35 When providers
         enroll, change ownership, or update information, the PIM requires MACs
         to ensure that they are not on the OIG List of Excluded
         Individuals/Entities or the General Services Administration’s Excluded
         Parties List System.36 The PIM also requires MACs to validate all data
         submitted on applications37 and lists some examples of possible
         verification methods.38 For example, the PIM suggests that MACs check
         the Yellow Pages or conduct a site visit to verify a provider’s practice
         location.39
         In addition, CMS issues a variety of memorandums intended to provide
         supplementary program integrity guidance to MACs. These documents
         include joint signature memorandums (JSM) and technical direction
         letters (TDL). For example, one JSM directed MACs to conduct site visits
         for providers and suppliers that listed UPS stores as their practice
         locations to ensure that providers were not using those locations as
         Medicare practice locations.40
         CMS has undertaken ongoing efforts to update provider information.
         In 2010, CMS implemented efforts to establish records in PECOS for all
         Medicare-enrolled providers.41 More recently, CMS instructed all
         providers and suppliers enrolled prior to March 25, 2011, to revalidate
         their enrollment data. These revalidation applications are subject to new
         screening provisions set forth in section 6401 of the Patient Protection and
         Affordable Care Act (ACA) that require classification of providers as




         35
           Chapter 10 of the PIM contained policies and procedures for processing enrollment
         applications during the time of our review. This information was recently moved to
         ch. 15.
         36
           CMS, PIM, Pub. No. 100-08, ch. 10, § 1.3. The General Services Administration’s
         Excluded Parties List System migrated to the System for Award Management in
         July 2012.
         37
              CMS, PIM, Pub. No. 100-08, ch. 10, § 1.3.
         38
              CMS, PIM, Pub. No. 100-08, ch. 10, § 5.2.
         39
              CMS, PIM, Pub. No. 100-08, ch. 10, § 5.2.B.
         40
           CMS, Transmittal 331, Change Request 6822. Onsite Verifications for
         Providers/Suppliers Located at a UPS Store (CONFIDENTIAL), March 26, 2010. Some
         memorandums are issued confidentially and are not available to the public online.
         41
           CMS, Transmittal 712, Change Request 6842. Medicare Claims Processing Manual,
         Pub. No. 100-20, “One-Time Mailing of Solicitation Letter To All Physicians and
         Non-Physician Practitioners Who Are Currently Enrolled in Medicare But Who Do Not
         Have An Enrollment Record In the Provider Enrollment, Chain and Ownership System
         (PECOS).”


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)    7
         limited risk, moderate risk, or high risk.42 During the first phase of the
         revalidation effort, 89,000 providers and suppliers that were actively
         enrolled in Medicare but not enrolled in PECOS were asked to revalidate
         their enrollment data.43 If providers do not revalidate their data within
         60 days of a request, CMS may deactivate their billing privileges.44
         Importance of Accuracy, Completeness, and Consistency of
         Provider Identification Data
         The accuracy and completeness of NPPES data are important for
         identifying the locations of providers across all health insurance programs.
         Public and private insurers need reliable information to identify
         geographic trends in provider fraud, waste, and abuse and to efficiently
         locate individual providers. Public health officials also need reliable
         provider information to locate providers during natural disasters or other
         emergencies. Finally, the health care industry relies on NPPES registry
         data to link legacy provider identifiers with NPIs, and health care
         providers rely on NPPES registry data to find the NPIs of other health care
         providers to submit certain health care claims.45
         The accuracy and completeness of PECOS data are important for many
         critical CMS business functions, including the ability to make informed
         provider enrollment decisions; pay claims accurately; and combat fraud,
         waste, and abuse in Medicare and other health care programs. For
         example, CMS may use an edit to automatically check provider specialties
         listed in PECOS to determine whether providers were eligible to order
         beneficiary supplies and services.
         Federal requirements do not mandate that information in NPPES and
         PECOS be consistent. However, inconsistencies in provider data can
         complicate efforts to locate providers. Inconsistencies in data may also
         hinder joint efforts among Federal, State, local, and nongovernmental
         entities to fight health care fraud, waste, and abuse.
         Previous OIG Work
         Prior to the creation of NPPES and the implementation of PECOS, we
         issued many reports highlighting problems with CMS’s oversight of

         42
           Patient Protection and Affordable Care Act, P.L. 111-148 § 6401, Social Security Act,
         § 1866(j), 42 U.S.C. § 1395cc(j); 76 Fed. Reg. 5862 (Feb. 2, 2011). The new risk-based
         screening provisions and the success of the revalidation efforts are outside the scope of
         this report.
         43
            CMS, Revalidation of Medicare Provider Enrollment National Provider Call,
         transcript, October 27, 2011. Accessed at www.cms.gov on October 2, 2012.
         44
           42 CFR § 424.515(a)(2). CMS, PIM, Pub. No. 100-08, ch. 15, § 15.29; Sample
         Revalidation Letter. Accessed at www.cms.gov on October 2, 2012.
         45
              72 Fed. Reg. 30011, 30013 (May 30, 2007).


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)          8
         UPINs, a type of legacy identifier for providers. Our studies reported
         inaccuracies and inconsistencies in UPIN data maintained by CMS.46, 47, 48
         We also reported questionable and fraudulent Medicare claims associated
         with the use of invalid and inactive UPINs, the use of UPINs that
         belonged to deceased physicians, the improper use of surrogate UPINs,
         and the use of legitimate UPINs that were associated with an unusually
         large number of claims.49, 50, 51 In congressional testimony provided in
         2008, CMS stated that conversion from the use of UPINs to NPIs had
         strengthened CMS’s ability to combat fraud and abuse schemes that rely
         on invalid provider identifiers.52 However, the Inspector General
         cautioned Congress in 2009 that the vulnerabilities that had affected
         UPINs may affect the integrity of the NPI system, then recently
         launched.53
         Although CMS described PECOS as an important national tracking
         mechanism to identify illegal Medicare activities, we identified problems
         early in its implementation.54 Our first examination of PECOS revealed
         that contractor staff responsible for processing Medicare applications
         misunderstood policy and had problems accessing the system.55 In a
         2009 study of the accuracy of Medicare provider remuneration
         information, OIG staff were unable to reach many sampled providers
         using the contact information listed in PECOS, determined that the contact
         information listed in NPPES often differed from that in PECOS, and found



         46
          OIG, Accuracy of Unique Physician Identification Number Data (OEI-07-98-00410),
         October 1999.
         47
           OIG, Inaccuracies in the Unique Physician Identification Number Registry: Incorrect
         Addresses for Mental Health Service Providers (OEI-03-99-00131), May 2002.
         48
           OIG, Accuracy of Unique Physician/Practitioner Identification Number Registry Data
         (OEI-03-01-00380), July 2003.
         49
          OIG, Medical Equipment and Supply Claims With Invalid or Inactive Physician
         Numbers (OEI-03-01-00110), November 2001.
         50
          OIG, Durable Medical Equipment Ordered With Surrogate Physician Identification
         Numbers (OEI-03-01-00270), September 2002.
         51
           OIG, Invalid Prescriber Identifiers on Medicare Part D Drug Claims
         (OEI-03-09-00140), June 2010.
         52
           Medicare Payments for Claims with Identification Numbers of Dead Doctors,
         110th Cong. 12 (2008) (testimony of Herb B. Kuhn, CMS Deputy Administrator).
         53
            Combating Fraud, Waste, and Abuse in Medicare and Medicaid, 111th Cong. 5 (2009)
         (testimony of Daniel R. Levinson, Inspector General).
         54
              66 Fed. Reg. 51961 (Oct. 11, 2001).
         55
            OIG, Provider Enrollment, Chain and Ownership System: Early Implementation
         Challenges (OEI-07-05-00100), April 2007.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)      9
         that about 20 percent of sampled providers could not be reached with the
         contact information from either database.56

         METHODOLOGY
         Scope
         This study assessed the records of individual health care providers in
         NPPES and PECOS but did not assess records for organization health care
         providers or suppliers. In January 2010, NPPES contained
         2,313,183 records for individual providers, and in August 2010, PECOS
         contained 1,211,520,57 with 987,266 records appearing in both databases.58
         We reviewed records for individuals listed in both NPPES and PECOS.
         (Our review did not include individuals who had both enrolled in
         Medicare prior to November 2003 and had not updated their enrollment
         records using PECOS by the time of our review.) Provisions for provider
         data integrity that went into effect after our review, such as CMS’s
         implementation of the ACA requirement for risk-based screening of
         providers,59 were excluded from our analysis. Additionally, this study did
         not examine the accuracy of Medicare claims coding, data processing, or
         payments.
         Data Collection and Analysis
         We obtained from CMS all records of the most recent updates of NPPES
         and PECOS at the time of our review. NPPES contained data from
         January 2010, and PECOS contained data from August 2010.60 We
         analyzed the following selected variables for individual providers in both
         databases:
               NPI,
               SSN (conditionally required in NPPES),61

         56
              OIG, Reassignment of Medicare Benefits (OEI-07-08-00180), October 2009.
         57
           The number of individual records in PECOS is based on the presence of
         1,211,520 unique PECOS Associate Control Identifiers categorized as “individual” (not
         “organizational”) in PECOS.
         58
          The number of records located in both NPPES and PECOS is based on a match of
         NPIs.
         59
              76 Fed. Reg. 5862 (Feb. 2, 2011).
         60
           At the time of our review, some of the variables that we requested for analysis were not
         available in the PECOS Global Extract routinely used for analysis. The contractor that
         maintained the database required a significant amount of time to create a separate
         interface to provide the requested data.
         61
           In NPPES, SSN must be included on Web-based applications, but not on paper
         applications. In PECOS, the TIN field may include an SSN or EIN for each provider.
         For ease of reading, we refer to this variable as SSN.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)     10
         	 first name,
         	 last name,
         	 gender (not required in PECOS),
         	 DOB,
         	 provider specialty/credential,62
         	 State of professional licensure and license number (conditionally
            required in NPPES and PECOS),
         	 telephone number (not required in PECOS),
         	 mailing address ZIP Code, and
         	 practice address ZIP Code.
         Not all of the variables we analyzed are required in order for providers to
         obtain an NPI or to enroll in Medicare. The SSN variable is conditionally
         required in NPPES; it is required for Web-based applications but not for
         paper applications. Provider license information is conditionally required
         in both NPPES and PECOS for specific types of providers.63 Gender and
         telephone number are not required variables in PECOS. We considered
         this when presenting information about the completeness and consistency
         of data in the “Findings” section of this report.
         Accuracy of the Data in NPPES and PECOS. We selected a simple
         random sample of 170 providers from those 987,266 individual providers
         with records in both NPPES and PECOS. We created an online survey
         that listed the NPPES and PECOS data for the selected variables for each
         provider. The survey asked providers to verify whether the data for each
         variable were accurate. The data included provider variables to identify
         individuals (i.e., name, SSN, DOB, place of birth, and license and
         credential information) and address information for mailing and practice




         62
            A variable called “physician specialty code” denotes 77 physician and nonphysician
         specialties in PECOS, while a variable called “taxonomy code” indicates 644 individual
         provider specialties in NPPES. An optional text field in each database called “credential”
         allows providers to indicate a more general provider type, such as M.D. for medical
         doctor. We used the required specialty type fields in each database for our analysis of
         completeness. We used the optional credential text field in each database for our analysis
         of accuracy and consistency, as the two databases had very different coding schemes for
         specialty type.
         63
            Neither NPPES nor PECOS indicate which types of providers are required to submit
         license information.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)     11
         location(s).64 If the data were inaccurate, the survey asked the provider
         whether these data were:
         	 partially inaccurate (e.g., included a misspelling or transposed
            numbers);
         	 correct at one time, but no longer current; or
         	 never correct.65
         Data that providers indicated were not correct for a particular variable
         were reported as “inaccurate” in the findings.
         Appendix A provides details regarding our attempts to contact providers to
         participate in the survey. After 4 months, 126 of 170 providers completed
         the survey—a response rate of 74 percent. We produced population
         estimates based solely on responses from these 126 providers without
         adjusting for nonresponse. Therefore, all estimates based on the provider
         survey project to an estimated total of only 731,738 provider records
         rather than 987,266. Appendix B provides point estimates and 95-percent
         confidence intervals for all survey estimates presented in the report.
         Completeness of the Data in NPPES and PECOS. We analyzed each
         database to determine the extent to which selected provider variables were
         populated. We reviewed all 2,313,183 individual records in NPPES and
         the 1,021,652 individual records in PECOS indicating that the enrollee
         was a health care practitioner.66 NPPES contained one record per
         provider, listing all variables. However, PECOS is substantially more
         complicated; records for a given provider appear across multiple
         “relational tables,” each with different variables and different numbers of
         records per table. (For more detail on how PECOS is structured, see
         Appendix A.) Therefore, we identified two types of incomplete records
         for PECOS: records that were missing from the relevant table and records
         that were present in the relevant table but did not contain values for a
         particular variable. The relational tables featuring practice location


         64
           Our survey did not ask providers to verify telephone numbers or gender, which are not
         required variables in PECOS. The survey did ask providers to verify conditionally
         required variables, such as professional license information.
         65
            We sought to determine the accuracy of provider data, but not to correct inaccurate
         information. Within the survey, we notified providers that they are responsible for
         updating inaccurate data, and we listed the instructions for doing so.
         66
           Of the 1,211,520 individual PECOS records, 1,021,652 were associated with health
         care practitioners. The remaining individuals were authorized or delegated officials of
         provider and supplier organizations or worked on behalf of providers or suppliers. Such
         individuals are not providers and are not required to have an NPI; therefore, we excluded
         them from our analysis of the completeness of PECOS data.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)       12
         information did not contain all records for individual providers; some
         individual provider data were stored in group enrollment records.
         For this analysis, we generally excluded variables that were not required,
         and attempted to include variables that were conditionally required. We
         excluded gender and telephone number from the PECOS analysis because
         they are not required on the Medicare enrollment application. We
         included SSN in the NPPES analysis because it is required for Web-based
         applications. We included State license information in our analyses of
         both databases because it is required for certain provider specialty types.
         However, we found no indication NPPES of whether applications were
         submitted via Web or paper, and no indication in either database of which
         provider specialty types were required to submit license information. As
         such, we were unable to determine whether null values were appropriate
         for SSNs in NPPES or license information in either database. Therefore,
         the totals for “incomplete” records in the findings include only missing
         provider records and those records that did not contain values for a
         particular variable when undoubtedly required.
         Consistency of the Data in NPPES and PECOS. We compared the
         selected data fields in each database to determine whether the data were
         consistent in both. This matching process used variables that were
         required across both databases as well as variables that were conditionally
         required and/or not required but were populated across both databases
         (e.g., text field for provider credentials, if populated in both). Where there
         were multiple values for variables in either database, we searched for at
         least one match between the two databases. For example, NPPES
         contained up to 15 licenses per provider and PECOS contained up to
         19 licenses per provider; we looked for any match and considered the
         record consistent if we found one. In determining whether there was a
         data match, we considered only the content of data fields, not their
         formatting. For example, we standardized the text for the credentials
         variable so that capitalization, spacing, and punctuation did not influence
         the match (e.g., “R.N.” and “r n” would match).67 Rather than attempt to
         standardize street addresses in their entirety, we used only the ZIP Code
         portion to match addresses to reduce the detection of false mismatches.
         The exclusive use of ZIP Codes can underestimate the precise number of

         67
            We standardized only the most common credentials, including clinical social worker
         (CSW, LCSW, LICSW, MSW, LMSW); doctor of chiropractic (DC); doctor of dental
         science (DDS); doctor of optometry (OD); doctor of osteopathy (DO); doctor of
         philosophy (PhD); doctor of podiatric medicine (DPM); doctor of psychiatry (PsyD);
         licensed dietician (LD); medical doctor (MD); nurse practitioner (NP, APN, APRN,
         WHNP, ARNP, FNP, CFNP); occupational therapist (OT, OTR, OTRL); physical
         therapist (MSPT, RPT, PT, MPT, DPT); and physician’s assistant (PA, PA-C).


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)      13
         mismatches. Appendix A includes more information regarding the
         process of matching addresses between NPPES and PECOS.
         We reported fields that did not contain the same information for a
         particular variable across both databases as “inconsistent” in the findings.
         It is possible that a provider could have updated the information in NPPES
         prior to our collection of PECOS data, resulting in a mismatch between
         the two databases. To estimate this effect, we reviewed the PECOS record
         history to determine how many records with mismatches could be
         explained by record updates between January and August 2010.
         CMS Oversight of NPPES and PECOS. CMS uses contractors to ensure
         the integrity of provider data. We obtained and reviewed guidance
         documents that CMS provided to contractors in processing the NPPES and
         PECOS data. We collected and reviewed information regarding CMS’s
         oversight of contractors; current program integrity requirements; and
         safeguards used to implement those requirements (e.g., electronic system
         edits and other methods to ensure the accuracy, completeness, and
         consistency of the NPPES and PECOS data). We compared documented
         requirements with the program integrity safeguards that contractors used
         to protect the integrity of provider data.
         We interviewed CMS contractor staff with oversight responsibilities for
         NPPES and PECOS at the time of our review. One contractor managed
         both databases,68 and a separate contractor processed NPI enumeration.
         The interviews enabled the study team to gather indepth information about
         contractor operations following staff responses to more general questions
         regarding data accuracy, completeness, and consistency. We identified
         interview responses that described vulnerabilities for the integrity of
         provider data.
         To assess the program integrity safeguards in place with regard to the
         accuracy and completeness of the PECOS data, we conducted structured
         interviews with staff from 11 organizations (generally MACs)69 that
         managed Medicare provider enrollment at the time of our review. These
         interviews focused on the oversight and maintenance of the PECOS data.
         We analyzed interview responses to determine whether the contractors
         verified provider enrollment data in accordance with the PIM and


         68
           After we interviewed the contractors in 2010, CMS awarded the contract for managing
         the NPPES system to a different entity.
         69
            At the time of our review, legacy carriers in six Part A/Part B MAC jurisdictions were
         still processing provider enrollment because the MAC contract awards were under protest
         and had not been finalized. For the purposes of this report, the contractors responsible
         for enrolling providers into PECOS will be referred to as MACs.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)    14
                      supplementary guidance. See List 1 for CMS’s suggested verification
                      methods for PECOS data.
List 1: Suggested Verification Methods for PECOS Data

 Adverse Legal History                                         Practice Location
 Check court records 
                                         Compare address to Internet sources
 Check records of the Internal Revenue Service (IRS) 
         Contact the city or county for professional/business
                                                                 license, certification, and/or registration
 Credentials                                                   Perform a site visit
 Check information/Web sites of State boards or
   credentialing organizations                                 Professional License
                                                               Require supporting documentation of license from each
 Exclusion Status                                                State where provider practices
 Check the OIG List of Excluded Providers and Entities
 Check the General Services Administration (GSA)               SSN
   Excluded Parties List System                                Confirm provider tax identification number with an
                                                                 approved IRS form
 Legitimacy of Business
 Compare telephone number to telephone listing(s)              Telephone Numbers
 Contact the city or county for professional/business          Call the number to verify connection or ownership
   license, certification, and/or registration                 Compare telephone number to Internet sources
                                                               Compare telephone number to telephone listing(s)
 Mailing Address
 Confirm that it is not a billing agency                       Request for Data Change
 Call telephone number to confirm applicant is reached         Compare signature for request to change a special
 Confirm that it is not a management service organization        payments address
 Confirm that it is not a chain’s corporate office             Compare signature for request to change a
 Confirm that it is not an applicant’s representative            provider’s electronic funds transfer authorization
                                                                 agreement
 NPI                                                           Compare signature for request to change practice
 Require supporting documentation from NPPES                     location address
                                                               Compare signature for request for reactivation or
                                                                 revalidation
                                                               Compare signature for requests to change mailing
                                                                 address

Source: OIG analysis of CMS, PIM, Pub. No. 100-08, ch. 10.



                      Finally, we interviewed CMS staff knowledgeable about NPPES and
                      PECOS regarding safeguards pertaining to data verification. Staff
                      discussed program integrity activities related to provider data in NPPES
                      and PECOS, as well as vulnerabilities and potential improvements for
                      each.
                      Limitations
                      Although we collected information about program integrity safeguards for
                      provider data from CMS and contractor staff, we did not determine the
                      extent to which each safeguard worked to prevent or correct inaccurate,
                      incomplete, and/or inconsistent data. The sampling scheme for our
                      provider survey did not enable us to determine the extent to which
                      individual MACs or the application submission method (paper or
                      electronic) influenced the accuracy, completeness, or consistency of
                      provider data.




           Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                15
         Standards
         This study was conducted in accordance with the Quality Standards for
         Inspection and Evaluation issued by the Council of the Inspectors General
         on Integrity and Efficiency.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   16
         FINDINGS
         In NPPES, 48 percent of records contained inaccurate
         data; almost all required data were complete
         Most currently practicing health care providers have records in NPPES.
         However, the provider information in NPPES was inaccurate for almost
         half of providers and while 91 percent of records contained values for all
         variables, 9 percent of records did not. We were unable to determine if
         most null values were appropriate, because they were associated with
         conditionally required variables and NPPES did not indicate whether
         applicable conditions were met.
         Forty-eight percent of NPPES records were inaccurate,
         generally because address data were inaccurate
         Forty-eight percent of NPPES records for Medicare-enrolled providers
         were inaccurate. Table 1 summarizes the inaccuracies identified by the
         provider survey. Appendix B provides confidence intervals for each of the
         point estimates.
         Table 1: Inaccurate Provider Data in NPPES

                                                        NPPES Inaccurate Records
          Provider Variable                                         (Percentage)
                                                                       N=731,738

          Mailing address                                                        34.1%

          Practice address                                                       33.3%

          License (primary)*                                                      4.0%

          Credentials**                                                           1.6%

          Date of birth                                                           1.6%

          License (secondary)*                                                    1.6%

          First name                                                              0.0%

          Last name                                                               0.0%

          NPI                                                                     0.0%

          SSN (last 4 digits)*                                                    0.0%

             Gross                                                               76.2%

             (Overlapping)                                                     (27.8%)

              Any variable                                                       48.4%

         Note: The survey did not ask providers to verify telephone number or gender.
         * Provider license and SSN variables are conditionally required in NPPES. 

         ** The credential text variable is not required in NPPES. 

         Source: OIG analysis of provider survey data, 2011. 





Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   17
         Responses from providers indicated that address information was the most
         common inaccuracy. When we asked providers about the accuracy of
         mailing addresses and practice address information, 44 percent identified
         at least one inaccurate NPPES address. Within the 126 survey responses,
         providers identified 96 data elements (i.e., provider variables shown in
         Table 1) as inaccurate; 51 (53 percent) were outdated, 18 (19 percent)
         were partially inaccurate (e.g., contained typographical errors), and
         27 (28 percent) had never been correct.
         Virtually all required variables in NPPES records were
         complete
         Although 2,098,784 provider records in NPPES contained all necessary
         data, we found that 214,399 provider records contained null values for one
         or more variables that are essential for provider identification.
         Specifically, four records did not contain required provider specialty data
         and two records did not contain the required telephone number. However,
         all remaining null values were associated with two conditionally required
         variables: license number and SSN. A license number is required only for
         certain provider specialties; however, NPPES does not indicate which
         records should include license numbers. Similarly, an SSN is required
         only for web-based applications, but NPPES does not indicate which
         records were from web-based applications. We were unable to determine
         the appropriateness of most null values because NPPES lacks indicators
         regarding which records required license number and SSN data.

         In PECOS, 58 percent of records contained inaccurate
         data and almost 4 percent were incomplete
         CMS relies on the verification of PECOS data to ensure Medicare
         provider integrity. However, the provider information in PECOS was
         often inaccurate and, at times, incomplete.
         Fifty-eight percent of PECOS records were inaccurate,
         generally because address data were inaccurate
         Fifty-eight percent of PECOS records for Medicare-enrolled providers
         were inaccurate. Table 2 summarizes the inaccuracies identified by the
         provider survey. Appendix B provides confidence intervals for each of the
         point estimates.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   18
         Table 2: Inaccurate Provider Data in PECOS

                                                      PECOS Inaccurate Records
          Provider Variable                                       (Percentage)
                                                                     N=731,738

          Mailing address (primary)                                               46.8%

          Practice address (primary)                                               8.7%

          Mailing address (secondary)                                              7.9%

          License (primary)*                                                       7.1%

          Credentials**                                                            4.8%

          License (secondary)*                                                     3.2%

          Last name                                                                2.4%

          Practice address (secondary)                                             2.4%

          DOB                                                                      0.8%

          First name                                                               0.0%

          NPI                                                                      0.0%

          SSN (last 4 digits)                                                      0.0%

              Gross                                                               84.1%

              (Overlapping)                                                      (26.2%)

               Any variable                                                       57.9%

         Note: The survey did not ask providers to verify telephone number or gender.
         * The provider license variable is conditionally required in PECOS. 

         **The credential text variable is not required in PECOS. 

         Source: OIG analysis of provider survey data, 2011. 



         Responses from providers indicated that address information was often
         inaccurate. When we asked providers about the accuracy of mailing
         addresses and practice address information, 52 percent identified at least
         one inaccurate PECOS address. Within the 126 survey responses,
         providers identified 106 data elements (i.e., provider variables shown in
         Table 3) as inaccurate; 60 (57 percent) were outdated, 25 (24 percent)
         were partially inaccurate (e.g., contained typographical errors), and
         21 (20 percent) had never been correct.70
         Almost 4 percent of PECOS records were missing required
         data
         We found that 3.7 percent provider records in PECOS were missing values
         in one or more required variables that are important for provider
         identification. Most of the incomplete data can be attributed to the fact
         that records were missing from the relevant relational tables in PECOS

         70
              Percentages have been rounded.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   19
         (i.e., the expected record did not exist) rather than to null values (i.e., the
         data fields contained no values). The information most often incomplete
         in PECOS was NPI (3 percent). Almost all of the records that were
         missing NPIs were “active” and therefore should have contained an NPI.71
         We could not determine how many records contained incomplete practice
         location addresses because the PECOS table that lists such information
         associates the practice location addresses with the entities to which
         providers reassigned their benefits. As a result, practice location addresses
         are rarely associated with individual providers. As in NPPES, license
         number is required only for certain provider types; however, PECOS does
         not indicate which records should include license numbers. Therefore, we
         excluded the 1.2 percent of records missing license number data from our
         calculation of the total percentage of incomplete records. The gender
         variable was incomplete for approximately 11 percent of records, and the
         telephone number variable was incomplete for approximately 4 percent.
         However, those variables are not required to be populated in PECOS and
         were therefore excluded from our calculation of the total percentage of
         incomplete records. Table 3 describes the extent to which individual
         provider variables were incomplete in PECOS.




         71
           Providers who had enrolled through PECOS before NPIs were required would not have
         an NPI on record; CMS should have deactivated these providers’ records if they had not
         submitted claims in more than a year. We found that less than 1 percent of the records
         that were missing NPIs (30 of 32,759) had been deactivated.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   20
Table 3: Incomplete Provider Data in PECOS

                                                                                                   Incomplete
                                                                                                                     Incomplete Records
                                   Records in             Missing               Null                  Records
 Provider Variable                                                                                                          N=1,021,652
                                    Database              Records         Data Field              N=1,021,652
                                                                                                                           (Percentage)
                                                                                                     (Number)

 NPI                                   988,893               32,759                  0                   32,759                         3.2%

 Mailing address                    1,016,075                 5,577                37                     5,614                         0.5%

 Provider specialty                 1,016,843                 4,809                  0                    4,809                         0.5%

 SSN                                1,021,427                   225                  0                      225                         0.0%

 DOB                                1,021,652                      0                 0                         0                        0.0%

 Full name                          1,021,652                      0                 0                         0                        0.0%

 License number*                    1,009,470                12,182                  0                          *                            *

 Gender**                           1,021,652                      0         111,546                           **                           **

 Telephone number**                 1,016,075                 5,577           38,875                           **                           **

 Practice address***                   203,637             818,015                 17                         ***                          ***

   Gross                                                                                                 43,407                         4.2%

   (Overlapping)                                                                                          5,964                         0.6%

   Any variable                                                                                          37,443                         3.7%
*We excluded license number from our calculation of the total because it is conditionally required and PECOS data did not indicate which
provider types were required to submit licensure information.

**We excluded gender and telephone number from our calculation of the total because they are not required fields in PECOS.

***The provider identification number used to link the other variables was not used to link practice address; we excluded practice address from
our calculation of the total to avoid misrepresenting the number of missing records. See Appendix A for more information.
Source: OIG analysis of NPPES and PECOS data, 2011.


                         Provider data were inconsistent between NPPES and
                         PECOS for 97 percent of records
                         Of the 987,266 records for providers listed in both NPPES and PECOS,
                         961,634 contained at least 1 variable that did not match. Only
                         11,682 records (1.2 percent of the mismatches) could potentially be
                         attributed to the timelag between updates of the databases.72 Only
                         3 percent of records contained information that matched across all selected
                         provider variables. More than half of the records were inconsistent
                         between the databases for provider contact information, such as practice
                         location address (89 percent), telephone number (59 percent), and mailing
                         address (51 percent). Address matches are based only on ZIP Codes; this
                         methodology may overestimate the consistency between addresses in
                         NPPES and PECOS. For required variables, such as practice location

                         72
                           Information updates were submitted in PECOS between January and August 2010 for
                         1.2 percent of the records with inconsistent data. We did not determine whether the
                         information that was entered as updates was the inconsistent information.


             Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                                   21
         address, some of the inconsistencies are attributable to missing or null
         values in one database or the other. For nonrequired variables, such as
         telephone number, inconsistencies are attributable only to populated
         values in both databases. Table 4 lists the extent to which variables were
         inconsistent between the databases.
         Table 4: Inconsistent Data Between NPPES and PECOS

                                                                   Mismatched Data         Mismatched Data
                                                                           Records                 Records
          Provider Variable
                                                                          (Number)             (Percentage)
                                                                         N=987,266               N=987,266

          Practice location address*                                        874,401                      88.6%

          Telephone number                                                  582,147                      59.0%

          Mailing address*                                                  500,865                      50.7%

          License number                                                    415,799                      42.1%

          Credential                                                         91,851                       9.3%

          Full name                                                          50,921                       5.2%

          DOB                                                                21,199                       2.2%

          Gender                                                             12,256                       1.2%

          SSN                                                                    376                        0%

          NPI                                                                       0                       0%

            Gross                                                         2,549,815                  258.2%**

            (Overlapping)                                               (1,588,181)                   (160.8)%

            Any variable                                                    961,634                      97.4%

         Note: Values that were null in both NPPES and PECOS for each variable are considered matches for this
         analysis. Variables that were optional in one database or the other (telephone number, credential, and
         gender) or conditionally required (license) were included in this analysis only if populated in both
         databases.
         *Matches for practice location and mailing addresses are for ZIP Codes only. See Appendix A for detailed
         methodology regarding the analysis of addresses.
         ** Figures do not sum to the total because of rounding.
         Source: OIG analysis of NPPES and PECOS data, 2011.


         CMS did not verify most provider information in
         NPPES or PECOS
         CMS had processes in place to verify the accuracy of provider data in
         NPPES and PECOS; however, the manner in which CMS implemented
         these processes impeded efforts to ensure that the databases contained
         accurate information. Contractor staff reported that CMS required
         verification for only one provider variable in NPPES. CMS instructed
         MACs to verify only four provider data variables in PECOS (SSN, NPI,
         State licensure, and exclusion status) and has not issued detailed guidance
         for verifying all provider data.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                         22
         CMS required little verification of NPPES enumeration data
         The SSN was the only provider data element verified within NPPES, a
         possible explanation for why SSNs were the most complete and consistent
         variable in both databases. However, no verification occurred for any of
         the other provider data elements. According to NPPES contractor staff,
         each online applicant’s SSN was verified through a CMS data-sharing
         agreement with the Social Security Administration. Staff stated that if a
         provider submitted a paper application and chose not to provide an SSN,
         they required two other forms of identification, one of which had to be
         government issued. Staff also noted that although the NPPES software
         standardized the street names in the system to those used by the U.S.
         Postal Service, the software did not verify that the provider maintained a
         practice at the location.
         CMS staff reported concentrating its program integrity efforts solely on
         PECOS because NPPES is not used exclusively for Federal health care
         programs. However, most individual providers that are registered in
         NPPES also enroll in Medicare.73 CMS staff reported that NPPES data,
         including NPI, first and last name, SSN, and DOB, were cross-referenced
         with PECOS data during the Medicare enrollment process, serving as a
         verification check for NPPES. CMS staff required providers to correct
         any inaccurate information in NPPES that resulted in inconsistencies with
         PECOS before they could proceed with Medicare enrollment. In response
         to questions about the implications of missing or inaccurate information in
         NPPES, CMS staff indicated that the onus is on providers to keep their
         NPPES data correct and up to date. However, CMS is ultimately
         responsible for ensuring the accuracy of the database.




         73
           Although no precise measure exists, the percentage of providers who choose not to
         participate in Medicare may be less than 1 percent. William Buczko, “Provider Opt-Out
         Under Medicare Private Contracting,” Health Care Financing Review,
         Winter 2004–2005, vol. 26, no. 2. OEI, Lack of Data Regarding Physicians Opting Out
         of Medicare (OEI 07-11-00340), January 26, 2012.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   23
         CMS directed MACs to suspend many of the verifications
         required by the PIM for Medicare provider enrollment in
         PECOS
         To expedite the provider enrollment process, CMS sent a series of
         memorandums74 to instruct MACs to verify only the following information
         during the initial or revalidation PECOS application process:
         	 the provider’s SSN and NPI,
         	 the applicable State licensure or educational requirements for the
            provider, and
         	 the provider’s status of not being excluded from participation in the
            program.
         This supplementary guidance effectively waived the PIM requirement to
         verify all application information, such as telephone numbers and
         addresses. During this time, CMS was actively encouraging “legacy
         providers”—providers that had enrolled in Medicare before PECOS was
         put into place—to reenroll through PECOS.75 As a result, CMS’s
         instructions to waive the PIM requirement affected not only new
         enrollments but also reenrollments.
         CMS guidance lacks specificity regarding mechanisms of
         verification for PECOS enrollment data
         The PIM directs MACs to verify enrollment data using the most
         cost-effective method available and suggests some options.76 The broad
         guidance provides flexibility in choosing how to verify enrollment
         application information. However, MACs’ use of inconsistent
         mechanisms of verification can contribute to inaccurate, incomplete, and
         inconsistent data. Appendix C lists the safeguards that MACs reported

         74
           CMS, Expedited Processing of Physician and Non-Physician Practitioner Initial
         Enrollment Applications (CONFIDENTIAL), JSM/TDL-10157, February 24, 2010;
         extended by CMS, Extension of Joint Signature Memorandums/Technical Direction
         Letters (JSM/TDLs) Which Expires December 31, 2010 – Confidential, JSM/TDL 11087,
         December 17, 2010, and CMS, Extension of Joint Signature Memorandums/Technical
         Direction Letters (JSM/TDL) 09184, 10175, 08191, and 0822, TDL 12171, January 18,
         2012. The JSM instruction remained in effect at the time of report publication, although
         we use past tense for ease of reading the report. Also for ease of reading, we refer to
         these collective memorandums as “supplemental guidance.” The memorandums are not
         available online to the public because they were issued confidentially. We were unaware
         of the existence of these memorandums until the contractor made them available to us.
         75
           CMS, Transmittal 712, Change Request 6842. Medicare Claims Processing Manual,
         Pub. No. 100-20, “One-Time Mailing of Solicitation Letter To All Physicians and
         Non-Physician Practitioners Who Are Currently Enrolled in Medicare But Who Do Not
         Have An Enrollment Record In the Provider Enrollment, Chain and Ownership System
         (PECOS).”
         76
              CMS, PIM, Pub. No. 100-08, ch. 10, § 5.2.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)    24
         using during the provider enrollment process at the time of our review and
         distinguishes verifications required by the PIM and reiterated in
         supplemental guidance from those required by the PIM but waived by
         supplemental guidance.
         MACs generally reported performing the activities suggested by CMS to
         verify the variables required by the PIM and reiterated in supplemental
         guidance. However, 4 of the 11 MACs did not require applicants to
         submit documentation from NPPES to verify providers’ NPIs, 2 did not
         require applicants to submit approved IRS forms to confirm their Tax
         Identification Numbers/SSNs, and 3 did not require applicants to submit
         documentation of professional licensure.
         MACs reportedly verified some of the information required by the PIM
         but waived by supplemental guidance; however, their methods suggested
         vulnerabilities in the enrollment process. For example, all of the MACs
         reported verifying that when an application listed a billing agency, the
         provider’s mailing address did not match the billing agency address.
         However, four MACs did not verify that the mailing address was not that
         of a management services organization, a chain’s corporate office, or the
         applicant’s representative, as required by the PIM. Seven MACs did not
         verify that practice locations were legitimate businesses, and four did not
         call telephone numbers to confirm that they were legitimate. Additionally,
         when a provider’s signature on a request for change (e.g., change of
         contact or payment information) did not match the signature from the
         original enrollment application, eight MACs required a driver’s license or
         passport to verify the signature on the request for change. However, one
         MAC required only an attestation on the enrolled provider’s letterhead as
         proof of identity.77
         Ineffective safeguards can contribute to inaccurate,
         incomplete, and inconsistent NPPES and PECOS data
         The lack of sophisticated electronic edits may explain why almost half of
         inaccurate NPPES data and 43 percent78 of inaccurate PECOS data were
         never accurate or only partially accurate. The staff from the electronic
         database contractor for NPPES and PECOS reported that a variety of
         external databases exist to verify the identity of new applicants, check for
         previously deactivated or excluded providers, and check for adverse legal

         77
            CMS, PIM, Pub. 100-08, ch. 10 § 5.7(A)(1). In cases in which a provider requests to
         change its practice location address, the MAC compares the signature on the change
         request to the same person’s signature on file to ensure that the signatures match. If there
         is a discrepancy, the MAC must request additional information, such as a photocopy of a
         current passport or driver’s license.
         78
              Total has been rounded.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)       25
         actions. However, they stated that NPPES and PECOS were not
         technologically integrated with many of these sources. CMS staff
         reported that they are implementing a new automated provider-screening
         tool for PECOS that references certain provider information against
         third-party sources such as State licensing boards and identity
         management databases.79
         Other oversight issues may explain why more than half of inaccurate
         NPPES data were outdated. Contractor staff reported that NPPES uses an
         algorithm to flag newly submitted applications that contain some level of
         provider information already in the database80 and stated that when such
         applications are flagged, a contractor staff member telephones the
         applicant to reach a resolution. However, staff reported difficulties when
         trying to reach providers and reported that they do not deactivate a
         provider’s NPI because of outdated contact information.
         NPPES contractor staff also reported difficulties when they processed
         monthly updates from the Social Security Administration’s Death Master
         Record File to deactivate NPIs belonging to deceased providers. NPPES
         staff reported sending letters to the providers’ NPPES mailing addresses to
         confirm that providers were deceased and called providers who sent no
         response to the letter within 20 days. If they received no response after
         30 days, staff deactivated the NPIs. However, if providers responded,
         stating that a mistake had occurred, their NPIs remained active.
         Consequently, if a fraudulent provider had stolen a deceased provider’s
         identity and indicated to NPPES staff that a mistake had occurred, the
         fraudulent provider would be able to continue billing as the deceased
         provider.
         Another explanation for errors is that, according to MAC staff,
         approximately 80 percent of enrollment applications were still processed
         on paper and transcribed into the PECOS Web interface.81 When staff
         transcribe the data from paper forms into PECOS, a risk of transcription
         errors arises. CMS estimated that fewer than 5 percent of NPPES
         applications are submitted via paper; however, there is a risk of
         transcription errors for those records as well.


         79
           CMS originally expected that the automated provider-screening tool would be fully
         implemented in mid-2012. CMS, “Information on the Centers for Medicare & Medicaid
         Services (CMS) Fraud Prevention: Automated Provider Screening and National Site
         Visit Initiatives,” MLN Matters Number SE1211, effective July 1, 2012. As of
         January 2013, CMS expected to fully implement the tool by the end of 2013.
         80
              A duplicate record may indicate an error or an attempt to fraudulently obtain an NPI.
         81
            The responses from MACs indicated that an average of 81 percent of applications were
         submitted in paper form, with a range between 66 and 97 percent.


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)           26
         Finally, although regulations require providers to update their NPPES and
         PECOS data soon after changes occur,82 CMS reportedly enforces this
         requirement only for PECOS through revalidation efforts generally
         scheduled every 5 years. CMS staff reported that they prompt providers to
         update NPPES data only if a mismatch occurs with the provider’s NPI,
         first or last name, SSN, or DOB in NPPES data during provider
         enrollment or reenrollment in PECOS.




         82
              45 CFR § 162.410(a)(4).


Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   27
         CONCLUSION AND RECOMMENDATIONS
         The ability to identify and locate providers is fundamental to health care
         program integrity. However, the results of our analyses show that NPPES
         and PECOS data are not reliable independently or even when combined.
         More than three out of four providers identified inaccurate data in NPPES
         or PECOS, and more than one in four providers identified inaccurate data
         in both NPPES and PECOS. Although verification requirements for
         provider information are more robust in PECOS, these data are not more
         accurate than analogous data in NPPES. Required variables in NPPES
         and PECOS were largely complete, however, the databases lacked the
         information necessary to determine whether missing values for
         conditionally required variables were appropriate. Data did not match
         between NPPES and PECOS for more than 9 out of 10 provider records.
         Addresses were the source of most inaccuracies and inconsistencies.
         Because the NPI is used by private and public health insurance programs,
         the lack of safeguards for NPPES data complicates program integrity
         efforts for all health care programs. Each program must separately
         implement robust safeguards during the enrollment process to ensure that
         provider data are accurate. The suspension of provider enrollment
         verification activities at a time of increased application volume could have
         compromised the accuracy and completeness of PECOS data, increasing
         the vulnerability of the Medicare program to fraud and abuse. CMS’s new
         automated provider-screening tool has the potential to improve the
         accuracy of PECOS data. However, it does not reduce the risk of
         fraudulent NPI enumeration and will not improve NPPES data accuracy.
         CMS and OIG have long recognized that preventing fraudulent providers
         from enrolling in Federal health care programs is more efficient and
         effective than trying to recover fraudulent payments. To prevent and
         correct fraudulent enumeration and enrollment, we recommend that CMS:
         Require MACs To Implement Program Integrity Safeguards for
         Medicare Provider Enrollment as Established in the PIM
         CMS should rescind the supplemental guidance that waives verification
         requirements in order to expedite the processing of PECOS applications
         and should issue new guidance reiterating that all provider data should be
         verified. MACs should verify all provider data, including credentials,
         mailing addresses, practice locations, telephone numbers, legitimacy of
         businesses, and adverse legal histories. CMS should take appropriate
         action if the safeguards that MACs use do not meet the requirements.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   28
         Require More Verification of NPPES Enumeration and PECOS
         Enrollment Data
         CMS should require more verification of provider data in NPPES to
         protect Medicare and other health care programs from fraud. In addition,
         CMS could consider:
         	 using the new PECOS automated provider-screening tool to verify
            provider data in NPPES, including name, DOB, place of birth,
            licensure, credentials, mailing address, practice location, telephone
            numbers, and legitimacy of business;
         	 monitoring NPPES applications by geographic area to detect potential
            fraud; and
         	 enabling NPPES contractor staff to immediately deactivate or suspend
            the NPIs of providers who are presumed to be deceased.
         CMS should also build upon the enhancements to the provider-enrollment
         screening requirements that went into effect March 25, 2011, by
         strengthening program integrity safeguards for all initial enrollments,
         change requests, and revalidations in PECOS. For example, providers
         identified as limited risk are exempt from the site visits required for
         moderate- and high-risk providers and suppliers; CMS should determine
         whether a computerized solution may be used to verify that limited-risk
         providers’ locations are legitimate.
         Detect and Correct Inaccurate and Incomplete Provider
         Enumeration and Enrollment Data for New and Established
         Records
         CMS should consider:
            requiring more frequent revalidation of selected variables, especially
             address information;
            implementing an automated system edit that will require license
             information for providers with applicable specialty/taxonomy codes;
            reducing or eliminating the option for providers to submit enumeration
             and enrollment applications via paper; and
            offering providers incentives to keep their data accurate and current.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   29
         AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
         RESPONSE
         CMS concurred with all three of the report recommendations.
         Regarding the first recommendation, CMS concurred and stated that
         measures to streamline the enrollment process do not jeopardize existing
         program integrity safeguards. CMS reiterated that MACs must adhere to
         the processing guidelines established in Chapter 15 of the PIM and that
         supplemental guidance provided to the MACs does not waive those
         guidelines. The results of this study suggest that MACs may not
         understand that supplemental guidance does not waive program integrity
         safeguards established in the PIM; we encourage CMS to clarify that point
         with the MACs directly.
         Regarding the second recommendation, CMS concurred and listed
         mechanisms under development to further verify NPPES and PECOS data.
         We encourage CMS to emphasize verification of NPPES data in addition
         to PECOS data.
         Regarding the third recommendation, CMS concurred and plans to use a
         new Automated Provider Screening tool to identify changes to provider
         data in PECOS and identify specific providers to revalidate more
         frequently. CMS has also made enhancements to PECOS that may
         decrease inaccurate and incomplete provider information. CMS stated that
         ongoing revalidation efforts and provider education regarding loss of
         billing privileges for failure to update records will encourage providers to
         keep their data accurate. We note that all of these efforts are directed
         towards PECOS data and are therefore unlikely to correct the inaccurate
         and incomplete provider enumeration data stored in NPPES. Reliable
         NPPES data could enhance program integrity efforts not just for Medicare,
         but all health care programs across the Nation.
         We did not make any changes to the report based on CMS’s comments.
         For the full text of CMS’s comments, see Appendix D.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   30
         APPENDIX A
         Detailed Methodology
         Invitations for Provider Survey. We used email addresses in the National
         Plan and Provider Enumeration System (NPPES) and Provider
         Enrollment, Chain and Ownership System (PECOS) databases to notify
         providers and/or their designated contact people of our survey. If provider
         email addresses were not valid, we called providers using the telephone
         number(s) listed in NPPES and PECOS in an effort to obtain valid email
         addresses. Next, we sent invitations to complete the online survey via
         email and U.S. Postal Service (USPS) mail, using the mailing address
         listed in PECOS. The USPS invitation letters assigned each provider a
         unique user name and password that were required as a security measure
         to complete the survey. Providers who did not complete the survey after
         2 weeks were sent a second USPS mailing and reminder email. Letters
         were sent to the same mailing address listed in PECOS unless initial
         mailings were returned marked as “Return to Sender,” in which case the
         second letter was sent to the mailing address listed in NPPES. We
         attempted to telephone providers who did not complete the survey and
         sent a final invitation letter via certified mail 10 weeks after the previous
         mailing. This final attempted mailing was sent to the provider mailing
         address listed in NPPES if it was different from the mailing address in
         PECOS; if it was the same, the letter was sent to the practice location
         address listed in NPPES.
         After 4 months, 126 providers had completed the survey—a response rate
         of 74 percent. The remaining 44 providers declined to complete the
         survey, were retired from practice, or accessed the survey but did not
         submit any response.
         Completeness of Data: PECOS. Most of the variables in our analysis
         were linked across relational tables in PECOS using a variable called
         PECOS associate control ID (PAC ID). However, the PAC ID was not
         present in the table featuring practice address; instead, a variable called
         Enrollment ID was used. Email correspondence with Centers for
         Medicare & Medicaid Services (CMS) staff confirmed that a practice
         address was displayed for individual provider records in the relevant table
         only if those providers had not reassigned their benefits to a group or other
         individual provider (which is common practice for providers working in a
         group or clinic setting). In many cases, the practice addresses would be
         under groups’ enrollment identifiers rather than the individual
         practitioners’ enrollment identifiers. Data for group practices were outside
         the scope of this study, so findings on the completeness of practice address
         are absent from this report.

Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   31
                     PECOS contained 5 schemas with 839 relational tables and 4,701
                     variables and different numbers of records per table. The 10 variables we
                     reviewed were located in 8 different tables within the schema that CMS
                     advised us to use. See Table A-1 for information about how many records
                     were listed for each variable in PECOS.

Table A-1: Records per Variable in PECOS Schema
                                                                                                       Number of
                                                                                                     Nonduplicate
                                                                                      Total Number
Variable                                            Table Name        Variable Link                     Individual
                                                                                        of Records
                                                                                                      Practitioner
                                                                                                          Records

 Full name                               PEC_INDVDL_NAME                    PAC ID       1,519,571      1,021,652

 Date of birth                            PEC_ASCT_INDVDL                   PAC ID       1,426,013      1,021,652

 Gender                                   PEC_ASCT_INDVDL                   PAC ID       1,426,013      1,021,652

 Social Security                                       PEC_TIN              PAC ID       1,751,742      1,021,427
 number

                          PEC_ENRLMT_PHYSN_SPCLTY +
 Specialty Code                                                             PAC ID       1,260,639      1,016,843
                          PEC_ENRLMT_NPHYSN_SPCLTY

 Mailing address                               PEC_MLG_ADR                  PAC ID       1,762,669      1,016,075

 Telephone                                     PEC_MLG_ADR                  PAC ID       1,762,669      1,016,075
 number

 License number                            PEC_STATE_LCNS             Enrollment ID      1,221,584      1,009,470

 National Provider                                     PEC_NPI              PAC ID       1,292,182        988,893
 Identifier

 Practice address                         PEC_ENRLMT_ADR              Enrollment ID        895,234        203,637

  Source: Office of Inspector General analysis of PECOS data, 2011.

                     Consistency of Data: Address Match. NPPES contained one set of
                     variables (i.e., street address, city, State, ZIP Code) for each provider
                     mailing address and another set of variables for each provider practice
                     location address. However, the relational tables in PECOS permitted two
                     mailing addresses and five practice location addresses per provider.83 If
                     the ZIP Code from the mailing address in NPPES matched the ZIP Code
                     for either mailing address in PECOS, we considered it a match. Similarly,
                     if the ZIP Code from the practice address in NPPES matched the ZIP Code
                     for any of the practice addresses in PECOS, we considered it a match.




                     83
                        Values for practice location address did not exist for many provider records, as
                     described in the section above regarding completeness of PECOS data.


        Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)              32
                    APPENDIX B
                    Point Estimates and Confidence Intervals Based on Provider
                    Survey
                    We calculated confidence intervals for key data points in the provider
                    survey regarding the accuracy of provider data. The sample size, point
                    estimates, and 95-percent confidence intervals are given for each of the
                    following:

Table B-1: Confidence Intervals for Provider Survey Data

                                                            Sample                                    95-Percent
 Data Element Description                                               Point Estimate
                                                              Size                            Confidence Interval

Number of providers who responded to the survey                 126            731,738           666,080–797,395
Percentage of providers with inaccurate NPPES mailing
                                                                126             43.7%               35.2%–52.5%
address or practice location address

Percentage of providers with inaccurate NPPES mailing
                                                                126             34.1%               26.3%–42.9%
address

Percentage of providers with inaccurate NPPES practice
                                                                126             33.3%               25.6%–42.1%
address

Percentage of providers with inaccurate NPPES State
                                                                126              4.0%                   1.6%–9.3%
license (primary)
Percentage of providers with inaccurate NPPES DOB               126              1.6%                   0.4%–6.2%
Percentage of providers with inaccurate NPPES State
                                                                126              1.6%                   0.4%–6.2%
license (secondary)

Percentage of providers with inaccurate NPPES
                                                                126              1.6%                   0.4%–6.2%
credentials
Percentage of providers with inaccurate NPPES first name        126              0.0%                   0.0%–2.9%
Percentage of providers with inaccurate NPPES last name         126              0.0%                   0.0%–2.9%
Percentage of providers with inaccurate NPPES NPI               126              0.0%                   0.0%–2.9%

Percentage of providers with inaccurate NPPES SSN
                                                                126              0.0%                   0.0%–2.9%
(last four digits)

Percentage of providers with inaccurate NPPES data
                                                                126             76.2%               60.6%–91.8%
(gross)

Percentage of providers with inaccurate NPPES data
                                                                126             27.8%               19.0%–36.6%
(overlapping)

Percentage of providers with inaccurate NPPES data (net)        126             48.4%               39.7%–57.2%

Percentage of providers with inaccurate PECOS mailing
                                                                126             51.6%               42.8%–60.3%
address or practice location address

Percentage of providers with inaccurate PECOS mailing
                                                                126             46.8%               38.2%–55.6%
address (primary)

Percentage of providers with inaccurate PECOS practice
                                                                126              8.7%                   4.9%–15.2%
address (primary)

Percentage of providers with inaccurate PECOS mailing
                                                                126              7.9%                   4.3%–14.2%
address (secondary)
                                                                                              continued on next page




          Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)          33
Table B-1: Confidence Intervals for Provider Survey Data (Continued)

                                                                              Sample                                      95-Percent
  Data Element Description                                                              Point Estimate
                                                                                Size                              Confidence Interval

 Percentage of providers with inaccurate PECOS practice
                                                                                 126               2.4%                     0.8%–7.2%
 address (secondary)

 Percentage of providers with inaccurate PECOS
                                                                                 126               4.8%                    2.1%–10.3%
 credentials

 Percentage of providers with inaccurate PECOS State
                                                                                 126               7.1%                    3.7%–13.2%
 license (primary)

 Percentage of providers with inaccurate PECOS
                                                                                 126               3.2%                     1.2%–8.2%
 state/license (secondary)

 Percentage of providers with inaccurate PECOS last name                         126               2.4%                     0.8%–7.2%
 Percentage of providers with inaccurate PECOS DOB                               126               0.8%                     0.1%–5.5%
 Percentage of providers with inaccurate PECOS first name                        126               0.0%                     0.0%–2.9%
 Percentage of providers with inaccurate PECOS NPI                               126               0.0%                     0.0%–2.9%

 Percentage of providers with inaccurate PECOS SSN
                                                                                 126               0.0%                     0.0%–2.9%
 (last four digits)

 Percentage of providers with inaccurate PECOS data
                                                                                 126              84.1%                 68.0%–100.0%
 (gross)

 Percentage of providers with inaccurate PECOS data
                                                                                 126              26.2%                   15.5%–36.9%
 (overlapping)

 Percentage of providers with inaccurate PECOS data (net)                        126              57.9%                   49.1%–66.3%
 Percentage of providers with any inaccurate NPPES or
                                                                                 126              77.0%                   68.7%–83.6%
 PECOS data

 Percentage of providers with inaccurate NPPES and
                                                                                 126              29.4%                   22.0%–38.0%
 PECOS data

Abbreviations used in table: NPPES = National Plan and Provider Enumeration System; DOB = date of birth; NPI = National Provider
Identifier; SSN = Social Security number; PECOS = Provider Enrollment, Chain and Ownership System.

Source: Office of Inspector General analysis of provider survey data, 2011.




              Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                          34
                    APPENDIX C
Table C-1: Safeguards That Medicare Administrative Contractors Report Using To Verify
Provider Enrollment Data

                                                                                                           MACs Routinely
                  Variable for
  Status                                                       Suggested Method for Verification               Performing
                  Verification
                                                                                                            Activity (N=11)

                                               Check the OIG List of Excluded Providers & Entities
                                                                                                                          11
                  Exclusion                                                             database
                  Status
                                                      Check the GSA Excluded Parties List System                          11
Required by the
PIM and                                Confirm provider tax identification number with an approved
                  SSN                                                                                                      8
Supplemental                                                         Internal Revenue Service form
Guidance
                  Professional             Require supporting documentation of license from each
                                                                                                                           9
                  License                                         State where provider practices

                  NPI                              Require supporting documentation from NPPES                             7

                                                    Check information/Web sites of State boards or
                  Credentials                                                                                             11
                                                                       credentialing organizations

                                                               Confirm that it is not a billing agency                    11

                                        Call telephone number to confirm that applicant is reached                         8


                  Mailing Address         Confirm that it is not a management service organization                         7

                                                     Confirm that it is not a chain’s corporate office                     6
Required by the
PIM but
Waived by                                        Confirm that it is not an applicant’s representative                      4
Supplemental
Guidance                                               Compare signatures for request to change a
                                                                                                                          11
                                                                       special payments address

                                          Compare signatures for request to change the provider’s
                                                                                                                          10
                                               electronic funds transfer authorization agreement
                  Request for
                  Data Change                   Compare signatures for request to change practice
                                                                                                                          10
                                                                                 location address

                                                    Compare signatures for request for reactivation
                                                                                                                           9
                                                                                    or revalidation

                                       Compare signature for requests to change mailing address                            8

                                             Compare addresses to addresses in Internet sources                           10

                  Practice             Contact the city or county for professional/business license,
                                                                                                                           2
                  Location                                               certification, or registration

                                                                                   Perform a site visit                    0

                                                                                                          continued on next page




           Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                    35
Table C-1: Safeguards That Medicare Administrative Contractors Report Using To Verify
Provider Enrollment Data (Continued)

                                                                                                                   MACs Routinely
                         Variable for
 Status                                                                  Suggested Method for Verification             Performing
                         Verification
                                                                                                                    Activity (N=11)

                                                         Call the number to verify connection or ownership                            7
                         Telephone
                         Numbers                           Compare telephone number to Internet sources                               5

                                                        Compare telephone number to telephone listing(s)                              2

                                                     Check records of the Internal Revenue Service (EIN)                              4
 Required by the
 PIM but Waived
                                                        Compare telephone number to telephone listing(s)                              2
 by Supplemental
 Guidance                Legitimacy of
                         Business                        Contact the city for professional/business license,
                                                                                                                                      2
                                                                                 certification, or registration

                                                     Contact the county for professional/business license,
                                                                                                                                      1
                                                                               certification, or registration

                         Adverse Legal
                                                                            Check court records of conviction                         2
                         History

Abbreviations used in table: MAC = Medicare Administrative Contractor, PIM = Program Integrity Manual, JSM = Joint Signature
Memorandum, OIG = Office of Inspector General, GSA = General Services Administration, SSN = Social Security number, NPI = National
Provider Identifier, NPPES = National Plan and Provider Enumeration System, and EIN = Employer Identification Number.

Source: Office of Inspector General analysis of MAC Survey data, 2011.




            Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)                              36
                      APPENDIX D
                      Agency Comments



    /tPVl~,



(     ~ DEPARTMENT
           	       OF HEALTH                  & HUMAN SERVICES                          Centers tor Medicare & Medicaid Services


    <~'!-	                                                                              Administrator
                                                                                        Washington , DC 20201




              DATE:
                               MAR 2 5 2013
              TO: 	         Daniel R. Levinson 

                            Inspector General 

                                               /S/
              FROM: 	       Marilyn 'h\'enner 

                            Acting Ad\nihistrator 


              SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Inaccurate, Incomplete, and
                         Inconsistent Provider Enumeration and Medicare Enrol.lment Data"
                         (OEI-07 -09-00440)


              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
              comment on the subject of the OIG draft report. The purpose of this report is to assess provider
              enumeration data (i.e., from providers' applications for National Provider Identifiers (NPI)) and
              Medicare provider enrollment data maintained by CMS for accuracy, completeness, and
              consistency; and to assess CMS oversight processes for ensuring the accuracy, completeness, and
              consistency of provider enumeration data and Medicare provider enrollment data.

              The CMS is committed to preventing fraudulent providers from enrolling in federal health care
              programs, removing fraudulent providers from the programs, and maintaining the integrity of the
              systems that house provider enumerators and enrollment information. Medicare Administrative
              Contractors (MAC) are required by the Program Integrity Manual (PIM) to use validation
              techniques such as documentation reviews, licensure verification, review of exclusion and
              debarment databases, interaction with Social Security Administration's (SSA) databases, and site
              visits to verify enrollment information.

              In addition, CMS has already begun working on developing mechanisms to further verify
              provider enumerator data and implement processes to actively deactivate NP!s when appropriate
              for potentially fraudulent providers.

              We appreciate OIG's efforts in working with CMS to help ensure that provider enumeration and
              Medicare enrollment data is accurate, complete, and consistent. Our response to each of the OIG
              recommendations follows.

              OIG Recommendation

              The OIG recommends that CMS require MACs to implement program integrity safeguards for
              Medicare provider enrollment as established in the PIM .




         Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEl-07-09-00440)                               37
Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   38
Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   39
Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   40
         ACKNOWLEDGMENTS
         This report was prepared under the direction of Brian Pattison, Regional
         Inspector General for Evaluation and Inspections in the Kansas City
         regional office, and Brian T. Whitley, Deputy Regional Inspector General.
         Julie Dusold Culbertson served as the team leader for this study. Other
         principal Office of Evaluation and Inspections staff from the Kansas City
         regional office who contributed to the report include Michael J. Brown
         and Jordan R. Clementi; central office staff who contributed include
         Kevin Farber, Scott Horning, Scott Manley, Christine Moritz, and
         Debra Roush.




Improvements Needed for Provider Enumeration and Medicare Enrollment Data (OEI-07-09-00440)   41
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
